Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 1 of 29 PageID #: 1

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION

EARLENE BRANCH PETERSON, KIMMA GUREL,
and MONICA VEILLETTE,
Plaintiffs,
v.

Case No. ____________

WILLIAM P. BARR, in his official capacity as
Attorney General of the United States; MICHAEL
CARVAJAL, in his official capacity as Director of the
Federal Bureau of Prisons; and T.J. WATSON, in his
official capacity as Complex Warden for Terre Haute
Federal Correction Complex,
Defendants.

[PROPOSED] COMPLAINT FOR DECLARATORY AND INJUNCTIVE RELIEF
Plaintiffs Earlene Branch Peterson, Kimma Gurel, and Monica Veillette (collectively
“Plaintiffs”), by and through their undersigned counsel, bring this Complaint and in support thereof
they allege as follows:
Nature of Action
1.

This action is for declaratory relief, pursuant to 28 U.S.C. § 2201 and Fed. R. Civ.

P. 57, and related injunctive relief, pursuant to 28 U.S.C. § 2202 and Fed. R. Civ. P. 65, and it
arises out of Defendants’ ongoing and future violation of the Administrative Procedure Act, 5
U.S.C. § 551 et seq. (the “APA”).
2.

As alleged below, Defendants are egregiously violating the APA because they have

announced their intention to execute Daniel Lewis Lee on July 13, 2020 at the United States
1

(1a)

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 2 of 29 PageID #: 2
2a
Penitentiary in Terre Haute (USP Terre Haute), even though the COVID-19 pandemic is
worsening and currently ravaging the federal prison system, including USP Terre Haute.
Plaintiffs, who are all members of Mr. Lee’s victims’ families, have been selected to attend the
execution and they have a well-established right to do so. Defendants, however, have placed
Plaintiffs in an untenable position because Plaintiffs cannot exercise those rights unless they put
their own lives at grave risk by traveling to USP Terre Haute and being exposed to COVID-19
while there,
3.

There is no legitimate reason for Defendants to go forward with Mr. Lee’s

execution on July 13, 2020 as opposed to a later date. Defendants have arbitrarily and capriciously
set that execution date, despite the COVID-19 pandemic, without adequately taking into account
Plaintiffs’ health and safety. Thus, Plaintiffs’ rights to attend Mr. Lee’s execution have been
subverted, and the agency action in setting the execution violates the APA because it is “arbitrary
and capricious” and “not in accordance with law.” 28 U.S.C. § 706(2)(A).
4.

Accordingly, through this Complaint, Plaintiffs seek (1) a declaration that

Defendants’ action is unlawful and should be set aside; and (2) an injunction barring Defendants
from setting an execution date for Mr. Lee until such time as Plaintiffs are able to exercise their
right to attend Mr. Lee’s execution without endangering their own lives. 1
Parties
5.

Plaintiff Earlene Branch Peterson is the mother of victim Nancy Mueller and the

grandmother of victim Sarah Powell.

1

The spiritual advisor for another prisoner, Wesley Purkey, has also filed an action in this
Court regarding the risks posed to him by attending Mr. Purkey’s execution, which is scheduled
for July 15, 2020. See Hartkemeyer v. Barr et al., 20-cv-00336 (S.D. Ind.) (the “Hartkemeyer
Action”).
2

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 3 of 29 PageID #: 3
3a
6.

Plaintiff Kimma Gurel is Nancy Mueller’s sister and Sarah Powell’s aunt.

7.

Plaintiff Monica Veillette is Nancy Mueller’s niece and Sarah Powell’s cousin.

8.

Defendant William P. Barr is the Attorney General of the United States. He

scheduled Mr. Lee’s execution for July 13, 2020 and has responsibility over carrying out death
sentences against federal prisoners. Defendant Barr maintains an office in Washington, D.C. and
is sued in his official capacity for the purpose of obtaining declaratory and injunctive relief.
9.

Defendant Michael Carvajal is the Acting Director the Federal Bureau of Prisons

(“BOP”). He is responsible for the supervision and operation of all federal prisons, including USP
Terre Haute, where Mr. Lee is scheduled to be executed on July 13, 2020. Defendant Carvajal
maintains an office in Washington, D.C. and is sued in his official capacity for the purpose of
obtaining declaratory and injunctive relief.
10.

Defendant T.J. Watson is the Complex Warden for the Federal Correctional

Complex, Terre Haute (FCC Terre Haute). Defendant Watson maintains an office in Terre Haute,
Indiana and is sued in his official capacity for the purpose of obtaining declaratory and injunctive
relief.
Jurisdiction and Venue
11.

This Court has subject matter jurisdiction over this matter under 28 U.S.C. § 1331

because Plaintiffs seek relief pursuant to 28 U.S.C. §§ 2201 and 2202.
12.

Venue lies in the Southern District of Indiana, where FCC Terre Haute, which

includes USP Terre Haute, is located. Venue is also appropriate under 28 U.S.C. § 1391, as venue
is proper in any district in which a defendant resides.
Statement of Facts

3

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 4 of 29 PageID #: 4
4a
I.

Plaintiffs Suffer from A Variety of Ailments.
13.

Plaintiff Earlene Branch Peterson is 81 years old. She lives in Hector, Arkansas, a

distance of more than 500 miles from Terre Haute, Indiana. She suffers from congestive heart
failure and, in addition to her age being a risk factor, also has other underlying conditions, that put
her at increased risk for developing COVID-19-related complications. She attended Mr. Lee’s
capital trial on a daily basis. She has been contacted over the years by members of the prosecution,
who have updated her on the status of proceedings in the case.
14.

Plaintiff Kimma Gurel is 61 years old. She lives in Spokane Valley, Washington,

a distance of nearly 2,000 miles from Terre Haute, Indiana. In addition to her age being a risk
factor, she suffers from underlying health conditions that put her at increased risk for developing
COVID-19-related complications. She attended Mr. Lee’s capital trial on a daily basis.
15.

Plaintiff Monica Veillette is 43 years old. She lives in Deer Park, Washington, a

distance of nearly 2,000 miles from Terre Haute, Indiana. She suffers from asthma and other
underlying conditions that put her at increased risk for developing COVID-19-related
complications. She attended Mr. Lee’s capital trial on a daily basis, and she testified as a witness
for the prosecution.
II.

Plaintiffs Will Be Exposed to Unnecessary and Life-Threatening Risks by Attending
Mr. Lee’s Execution.
16.

Defendants have relied on 28 C.F.R. Part 26 in announcing their intent to execute

Mr. Lee on July 13, 2020. 28 C.F.R. § 26.4 lists the persons who “shall be present” during an
execution and it includes “[e]ight citizens” selected by the Warden. 28 C.F.R. § 26.4(c)(4)(i).
17.

The BOP Execution Protocol (2019) (the “Protocol”), attached hereto as Exhibit A,

repeats the requirement from 28 C.F.R. § 26.4 that the Warden must select eight citizens to attend
4

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 5 of 29 PageID #: 5
5a
an execution. See Ex. A, Ch. 1, III.G.1.c.(1), 10-11. The Protocol further provides that, in
identifying those individuals, the Warden “will ask the United States Attorney for the jurisdiction
in which the inmate was prosecuted to recommend up to eight individuals who are victims or
victim family members to be witnesses of the execution.” Id.
18.

The process set forth in the Code of Federal Regulations and Protocol has taken

place and Plaintiffs are among the witnesses selected to attend Mr. Lee’s execution. Therefore,
pursuant to 28 C.F.R. § 26.4, Plaintiffs have the right to attend Mr. Lee’s execution.
III.

COVID-19 is a serious, debilitating and potentially lethal disease, which hits
vulnerable populations with particular severity.
19.

The SARS-CoV-2 virus, and the human infection it causes – COVID-19 – is a

global pandemic, was designated a global health emergency by the World Health Organization,
and was declared a national emergency on March 13, 2020, by President Donald Trump.
20.

In his Proclamation, declaring this national state of emergency, President Trump

noted that “[t]he spread of COVID-19 within our Nation’s communities threatens to strain our
Nation’s healthcare systems. As of March 12, 2020, 1,645 people from 47 States have been
infected with the virus that causes COVID-19.”

Proclamation on Declaring a National

Emergency Concerning the Novel Coronavirus Disease (COVID-19) Outbreak (issued on March
13, 2020). 2
21.

Those numbers have increased dramatically over the past four months. According

to the Centers for Disease Control and Prevention (“CDC”), as of July 4, 2020, there have been

2

Available at: https://www.whitehouse.gov/presidential-actions/proclamation-declaringnational-emergency-concerning-novel-coronavirus-disease-covid-19-outbreak/ (last visited July
5, 2020).
5

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 6 of 29 PageID #: 6
6a
2,789,678 total confirmed cases of COVID-19 in the United States, and 129,305 deaths. Cases,
Date & Surveillance: Cases in the U.S. (July 4, 2020). 3
22.

As of July 4, 2020, the number of new confirmed cases reported compared to July

3, 2020, was 57,718, including 661 new deaths. Id.
23.

The number of new deaths tends to lag by two weeks or more behind the number

of new COVID cases.
24.

COVID-19 is a serious, debilitating, and sometimes deadly disease. Although it is

often compared to influenza, the overall case fatality rate is 5-35 times the fatality rate associated
with influenza infection. And unlike influenza, overall, some 20% of cases will have more severe
disease requiring medical intervention and support.
25.

There is currently no vaccine or known cure for COVID-19.

26.

The virus enters the body when someone inhales respiratory droplets containing

SARS-CoV-2, or when these droplets enter via the eyes. The coronavirus then enters cells in the
nose and throat where it invades them by latching onto a receptor at the cell surface. It then
proliferates by using the invaded cell’s own machinery. From there, the virus can spread from the
nose and throat to the lungs, where the virus—and the body’s immune response—can disrupt the
flow of oxygen into the blood, causing coughing and shortness of breath. SARS-CoV-2 can invade
many other organs in the body with a wide range of effects: seizures and strokes in the brain; blood
clots and cardiac inflammation in the vessels and heart; and liver and kidney damage. 4

3

Available at: https://www.cdc.gov/coronavirus/2019-ncov/cases-updates/cases-inus.html (last visited July 5, 2020).
4

Wadman, Couzin-Frankel, Kaiser, Matacic, How does coronavirus kill? Clinicians
trace a ferocious rampage through the body, from brain to toes, Science, April 17, 2020.
6

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 7 of 29 PageID #: 7
7a
27.

The course of illness in any particular person is unpredictable. Some individuals

with COVID-19 may have no symptoms or only mild symptoms, while others may develop severe
illness.
28.

The “mild” symptoms for COVID-19 are fever, chills, cough, shortness of breath,

fatigue, muscle or body aches, headache, new loss of taste or smell, sore throat, congestion or
runny nose, nausea or vomiting, and diarrhea. Many COVID-19 infections resolve within a few
weeks. However, a subset of individuals has enduring symptoms that last months. Many of these
individuals are young and previously healthy. 5
29.

Once contracted, COVID-19 can cause severe damage to lung tissue, including a

permanent loss of respiratory capacity.
30.

It can also permanently damage tissues in other vital organs, as well, such as the

heart, central nervous system, and liver.
31.

There are multiple ways in which COVID-19 can be deadly. Among patients who

have more serious disease, some 30% will progress to Acute Respiratory Distress Syndrome
(ARDS), a condition in which oxygen levels in the blood and blood pressure falls dramatically.

Available at: https://www.sciencemag.org/news/2020/04/how-does-coronavirus-kill-clinicianstrace-ferocious-rampage-through-body-brain-toes. (last visited July 6, 2020).
5

Symptoms of Coronavirus, Centers for Disease Control and Prevention, (noting “This
list does not include all possible symptoms.”) https://www.cdc.gov/coronavirus/2019ncov/symptoms-testing/symptoms.html (last visited July 6, 2020); Ed Young, COVID-19 can
last for several months, The Atlantic, June 4, 2020 Available at:
https://www.theatlantic.com/health/archive/2020/06/covid-19-coronavirus-longterm-symptomsmonths/612679/ (last visited July 6, 2020).
7

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 8 of 29 PageID #: 8
8a
ARDS has a 30% mortality rate overall, higher in those with other health conditions. Some 13%
of these patients will require mechanical ventilation. 6
32.

COVID-19 can also cause heart damage, blood clots, and constriction of blood

vessels, all of which can play a role in causing death. Kidney failure can also be involved in
COVID-19 mortality.
33.

Even when it does not kill, COVID-19 can severely damage lung tissue, which

requires an extensive period of rehabilitation, and in some cases, cause permanent loss of breathing
capacity. COVID-19 may also target the heart, causing a medical condition called myocarditis, or
inflammation of the heart muscle. Myocarditis can reduce the heart’s ability to pump.
34.

An exaggerated response of the immune system called a “cytokine storm” can come

from a COVID-19 infection. When that occurs, a flood of inflammatory signaling molecules are
unleashed onto the body. These molecules cause blood vessels to become leaky, resulting in a drop
in blood pressure. Blood clots become more likely to form and obstruct vessels. Organs may not
get the oxygen they need to function. This is a complication of grave concern. 7
35.

Age is a critical risk factor for the severe illness and potential fatality associated

with COVID-19. There are multiple estimates of the ratio between all known cases and known

6

Sinha, Matthay & Calfee, Is a “cytokine storm” relevant to COVID-19?, JAMA
Internal Medicine, June 30, 2020. Available at:
https://jamanetwork.com/journals/jamainternalmedicine/fullarticle/2767939 (last visited July 6,
2020).
7
Id.
8

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 9 of 29 PageID #: 9
9a
deaths (the “case-fatality ratio”) for COVID-19 but risk for severe illness and mortality rises
steeply above 60-70 years of age. 8
36.

A number of underlying conditions, other than age, create higher risk and influence

the course of symptoms and mortality rate. For example, people with type 2 diabetes are nearly 4
times more likely to develop serious disease or die from COVID-19. 9 Heart disease, COPD,
hypertension, and cancer are all risk factors for ICU admission, ventilation, or death. 10
37.

The COVID-19 mortality rate is twelve times higher among those with underlying

conditions. Specifically, 19.5% of people with COVID-19 who had underlying health conditions
died as compared to 1.6% of those without underlying conditions. 11
38.

Epidemiologists have collected additional demographic data on populations of

COVID sufferers. Individuals with obesity are about twice as likely to be hospitalized with

8

Older Adults, Centers for Disease Control and Prevention, updated June 25, 2020.
Available at: https://www.cdc.gov/coronavirus/2019-ncov/need-extra-precautions/olderadults.html (last visited July 6, 2020).
9

Zheng Z, Peng F, Xu B, et al. Risk factors of critical & mortal COVID-19 cases: A
systematic literature review and meta-analysis [published online ahead of print, 2020 Apr 23]. J
Infect. 2020;S0163-4453(20)30234-6. doi:10.1016/j.jinf.2020.04.021
10

Guan WJ, Liang WH, Zhao Y, et al. Comorbidity and its impact on 1590 patients with
COVID-19 in China: a nationwide analysis. Eur Respir J. 2020;55(5):2000547. Published 2020
May 14. doi:10.1183/13993003.00547-2020.
11

Stokes EK, Zambrano LD, Anderson KN, et al. Coronavirus Disease 2019 Case
Surveillance – United States, January 22-May 30, 2020, MMWR Morb Mortal Wkly Rep
2020;69:759-765. DOI: http://dx.doi.org/10.15585/mmwr.mm6924e2. Available at:
https://www.cdc.gov/mmwr/volumes/69/wr/mm6924e2.htm?s_cid=mm6924e2_w#T1_down
(last visited July 6, 2020).
9

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 10 of 29 PageID #: 10
10a
COVID-19. Younger patients with obesity are more likely to require hospital admission and ICU
care when infected than their non-obese counterparts. 12
39.

To be classified as a confirmed case of COVID-19, an individual must meet

confirmatory laboratory evidence. 13 A viral test identifies people with current SARS-CoV-2
infection. Additionally, antibody tests can be used to identify people with a previous viral
infection.
40.

To be determined a confirmed case, an individual must have undergone diagnostic

testing, which is often limited in availability.
41.

If diagnostic testing is limited, either by availability or by choice, the number of

actual infected individuals may greatly exceed the number of reported confirmed cases.
42.

The Indiana State Department of Health confirmed its first case of COVID-19 on

March 6, 2020 and recorded its first death due to the virus on March 16.

12

Petrilli Christopher M, Jones Simon,
A. Yang Jie, Rajagopalan Harish, O’Donnell Luke, Chernyak Yelena et al. Factors associated
with hospital admission and critical illness among 5279 people with coronavirus disease 2019 in
New York City: prospective cohort study BMJ 2020; 369 :m1966; Jennifer Lighter, Michael
Phillips, Sarah Hochman, Stephanie Sterling, Diane Johnson, Fritz Francois, Anna Stachel,
Obesity in Patients Younger Than 60 Years Is a Risk Factor for COVID-19 Hospital
Admission, Clinical Infectious Diseases, , ciaa415, https://doi.org/10.1093/cid/ciaa415; Kass
DA, Duggal P, Cingolani O. Obesity could shift severe COVID-19 disease to younger
ages. Lancet. 2020;395(10236):1544-1545. doi:10.1016/S0140-6736(20)31024-2
13

Coronavirus Disease 2019 (COVID-19) 2020 Interim Case Definition, approved April
5, 2020, Centers for Disease Control and Prevention.
https://wwwn.cdc.gov/nndss/conditions/coronavirus-disease-2019-covid-19/casedefinition/2020/ (Last visited July 6, 2020)
10

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 11 of 29 PageID #: 11
11a
43.

Children, while initially thought to be safe from effects of the virus, are now

recognized as being susceptible to multisystem inflammatory syndrome (MIS-C) associated with
COVID-19.
44.

On May 18, 2020, Indiana confirmed its first case of MIS-C in a child.

45.

As of July 5, 2020, the Indiana State Department of Health (ISDU) announced that

522 additional Indiana residents had been diagnosed with COVID-19 from the previous day,
bringing to 47,432 the total number of Indiana residents known to have the novel coronavirus. On
July 6, 2020, the ISDU reported 596 additional state residents diagnosed with COVID-19 over the
previous day’s count, bringing the state total to 48,008. 14 This represents a 14% increase over the
number of cases added the previous day.
46.

This number represents a jump in the State of Indiana of almost 11,000 new cases

reported since June 5, 2020. Compare Health Department Updates Statewide COVID-19 Case
Counts, June 5, 2020, 15 with Health Department Updates Statewide COVID-19 Case Counts, July
4, 2020. 16
47.

As of July 4, 2020, the ISDU reported that a total of 2,494 Indiana residents were

confirmed to have died from COVID-19, and that an additional 193 probable deaths had been
reported based on clinical diagnoses in patients for whom no positive test was on record.

14

Health Department updates statewide COVID-19 case counts, Indiana State
Department of Health, IN.gov. Available at: https://calendar.in.gov/site/isdh/event/healthdepartment-updates-statewide-covid-19-case-counts-65/ (last visited July 6, 2020).
15

Available at: https://calendar.in.gov/site/isdh/event/health-department-updatesstatewide-covid-19-case-counts-36/ (last visited July 5, 2020).
16

Available at: https://calendar.in.gov/site/isdh/event/health-department-updatesstatewide-covid-19-case-counts-64/ (last visited July 5, 2020).
11

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 12 of 29 PageID #: 12
12a
48.

On July 1, 2020, Indiana Governor Eric Holcomb renewed the COVID-19 public

health emergency to extend from July 4 (the then-current expiration date) to August 3, 2020,
“unless further renewed.”

Executive Order 20-34, for: Fourth Renewal of Public Health

Emergency Declaration for the COVID-19 Outbreak, ¶ 2, State of Indiana Executive
Department. 17
49.

COVID-19 cases continue to rise in the United States. Just in the past week, rates

in some states and counties that had previously seen little disease have risen dramatically.
50.

For example, COVID-19 has continued to spread in Arkansas. In the last month,

the number of cases has almost tripled (5,644 cases reported on May 21st; 15,142 cases reported
June 21st). In response to the climbing cases, on June 18, 2020, the Governor extended the Public
Health Emergency Order for another forty-five days. Pulaski County, which includes Little Rock,
has one of the highest number of cases in Arkansas and reported 1,499 positive cases and 52 deaths
from COVID-19 as of June 21, 2020.
IV.

COVID-19 is highly transmissible.
51.

COVID-19 passes from person to person primarily through respiratory droplets.

This can happen whenever a person expels droplets into the air, and increases when an infected
individual speaks, shouts, sings, coughs, or sneezes.
52.

COVID-19 can survive on hard surfaces for hours to days. It can live for 72 hours

on plastic and metal, 48 hours on stainless steel, and 24 hours on cardboard. 18

17

Available at: https://www.in.gov/gov/files/Executive%20Order%202034%20Extention%20of%20the%20Public%20Health%20Emergency.pdf (last visited, July 5,
2020.)
18

Neeltje van Doremalen et al., “Aerosol and Surface Stability of SARS-CoV-2 as
Compared with SARS-CoV-1,” letter, New England Journal of Medicine (Massachusetts
12

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 13 of 29 PageID #: 13
13a
53.

New information indicates that COVID-19 may also be transmissible through

aerosolized fecal contact.
54.

The longer the time a person spends in an environment that harbors the virus increases

his or her chance of contracting it. While a very short period of time may be enough for someone to
contract it if the viral load is heavy, a longer period of time in the presence of even a small amount of
virus increases the chance of infection.
55.

For contact tracing purposes to determine a high likelihood of exposure, “close contact”

is defined by the CDC as “any individual who was within 6 feet for more than 15 minutes of an infected
person starting from 2 days before illness onset (or, for asymptomatic patients, 2 days prior to a positive
specimen collection) until the time the patient is isolated.19
56.

The most dangerous transmission scenarios are indoor environments with poor

ventilation in which people are close together. Research suggests that speech droplets which carry the
virus that causes COVID-19 can linger in the air in closed environments for 8 to 14 minutes.20 A study
currently under review found that among 1,245 cases during the COVID-19 outbreak in China, there

Medical Society, March 17, 2020), Available at:
https://www.nejm.org/doi/10.1056/NEJMc2004973 (last visited July 6, 2020). See also,
COVID-19 basics: symptoms, spread and other essential information about the new coronavirus
and COVID-19, Harvard Health Publishing, Harvard Medical School, updated July 2, 2020. (last
visited July 6, 2020).
19

Contact tracing for COVID-19, Centers for Disease Control and Prevention, Updated
June 17, 2020. Available at: https://www.cdc.gov/coronavirus/2019-ncov/php/contacttracing/contact-tracing-plan/contact-tracing.html (last visited July 6, 2020).
20

Valentyn Stadnytskyi, Christina E. Bax, Adriaan Bax, Philip Anfinrud. The airborne
lifetime of small speech droplets and their potential importance in SARS-CoV-2 transmission.
PNAS. May 2020, 202006874; DOI: 10.1073/pnas.2006874117
13

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 14 of 29 PageID #: 14
14a
was only one case of COVID-19 transmission that was in an outdoor environment, highlighting the
overwhelming predominance of COVID-19 transmission in indoor environments.21
57.

Wearing face masks helps to mitigate transmission of SARS-CoV-2, but does not

guarantee full protection. Even surgical masks, for example, block 75% of airborne particles, but not
all. 22 This is why medical personnel wear full coverage Personal Protective Equipment (PPE).
58.

When wearing non-N95 face masks, social distancing must be maintained to avoid

acquiring the virus. The two measures must be taken in combination – wearing a mask and social
distancing.
59.

Poorly ventilated spaces increase the likelihood of COVID-19 transmission. Some

airflow studies have found that respiratory droplets can travel between people even from 10 feet away,
suggesting that even the social distancing recommendation of 6 feet may be insufficient depending on
ventilation. 23 The Indiana State Department of Health warns that droplets expelled when a person

21

Hua Qian, Te Miao, Li Liu et al. Indoor transmission of SARS-CoV-2, medRxiv. April
2, 2020. Available at: https://doi.org/10.1101/2020.04.04.20053058 (last visited July 6, 2020).
22

Amy Mueller and Loretta Fernandez, Assessment of fabric masks as alternatives to
standard Masks in terms of particle filtration efficiency, medRxiv. April 17, 2020. Available at:
https://www.medrxiv.org/content/10.1101/2020.04.17.20069567v2.full.pdf (last visited July 6,
2020).
23

Feng Y, Marchal T, Sperry T, Yi H. Influence of wind and relative humidity on the
social distancing effectiveness to prevent COVID-19 airborne transmission: A numerical study
[published online ahead of print, 2020 May 18]. J Aerosol Sci. 2020;147:105585. Available at:
www.sciencedirect.com/science/article/pii/S0021850220300744?via%3Dihub (last visited July
6, 2020).
14

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 15 of 29 PageID #: 15
15a
infected with COVID-19 speaks, coughs, sneezes or speaks can travel up to 25 feet.24 Airflow direction
may also influence transmission.25
60.

Wearing a mask helps keep the person wearing it from spreading disease to another

(“source control”) but it does not confer much protection on the person wearing it unless it is an N95
mask.26
61.

N95 masks with vents, however, expel air so the wearer is protected but can still transmit

the virus.
62.

Because the virus can also enter one’s body through his or her eye membranes, no mask

confers complete protection.
63.

The onset and duration of viral shedding, which propagates spread, and the period

of infectiousness for COVID-19, are not well understood, and therefore, cannot be easily
prevented. Epidemiologists report that individuals who are contagious do not necessarily show
symptoms, either because they are asymptomatic (i.e. has a mild enough case of the virus that they
are unaware they have it) or because they are pre-symptomatic. A pre-symptomatic person will
go on to develop symptoms but can be infectious for up to 3 days before symptoms first develop.

24

State encourages Hoosiers to wear masks to help curb COVID-19, Indiana State
Department of Health, IN.gov. July 1, 2020. Available at:
https://calendar.in.gov/site/isdh/event/state-encourages-hoosiers-to-wear-masks-to-help-curbcovid-19/ (last visited July 6, 2020).
25

Lu J, Gu J, Li K, et al. COVID-19 Outbreak Associated with Air Conditioning in
Restaurant, Guangzhou, China, 2020. Emerging Infectious Diseases. 2020;26(7):1628-1631.
Available at: https://wwwnc.cdc.gov/eid/article/26/7/20-0764_article (last visited July 6, 2020).
26

Considerations for wearing cloth face coverings, Centers for Disease Control and
Prevention, updated June 28, 2020. Available at: https://www.cdc.gov/coronavirus/2019ncov/prevent-getting-sick/cloth-face-cover-guidance.html (last visited July 6, 2020).
15

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 16 of 29 PageID #: 16
16a
64.

The combined effect of asymptomatic and pre-symptomatic carriers is thought to

account for a substantial portion of SARS-CoV-2 transmission, with some estimates putting it at
between 50 to 80% of all transmission. 27
65.

Because asymptomatic and pre-symptomatic carriers are infectious at early stages

of infection, screening measures that do not include testing, such as restricting access to buildings
if someone has a fever or symptoms, do little to prevent the introduction of the virus into any
environment.
66.

The State of Missouri is the only jurisdiction in the United States that has carried

out an execution since the President declared COVID-19 a national emergency on March 13, 2020.
The Missouri prison where that execution occurred on May 19, 2020, experienced an outbreak of
21 COVID-19 infections in the weeks after the execution. 28
67.

Upon information and belief, the COVID-19 screening measures employed by BOP

at FCC Terre Haute, including USP Terre Haute, have been and continue to be inadequate.
Widespread testing of staff and inmates has not taken place at the correctional complex, and
asymptomatic individuals are not tested. In March 2020, the BOP employed a screening tool for
visitors, volunteers and contractors seeking entrance to a prison that asked the individual to selfreport if she had fever or chills, cough, or shortness of breath, and required a temperature check.

27

Gandhi, Yokoe, & Havlir, Asymptomatic transmission, the Achilles’ heel of current
strategies to control COVID-19, N Engl J Med 2020; 382:2158-2160. May 28, 2020. Available
at: https://www.nejm.org/doi/full/10.1056/NEJMe2009758?query=recirc_curatedRelated_article
(last visited July 6, 2020).
28

Bobby Radford, COVID-19 Outbreak Confirmed at Prison in Bonne Terre, Daily
Journal Online (June 19, 2020), https://dailyjournalonline.com/news/local/govt-andpolitics/covid-19-outbreak-confirmed-at-prison-in-bonne-terre/article_c7222072-e242-513d871a-c63a9c30cfbc.html (last visited July 7, 2020)
16

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 17 of 29 PageID #: 17
17a
The form also asked if the person had traveled within the previous 14 days to China, Iran, South
Korea, Italy, or Japan, or had had close contact with anyone “diagnosed” with the COVID-19
illness with the last 14 days. According to the BOP website, this remains the screening tool being
used for visitors to BOP prisons. See BOP Visitor/Volunteer/Contractor COVID-19 Screening
Tool 29 and BOP Implementing Modified Operations. 30
68.

The BOP also employs an inadequate staff screening tool that requires a

temperature check, and an employee self-report as to whether he or she has a “new on-set cough,”
“new onset trouble speaking because of needing to take a breath,” or “stuffy/runny nose.” With a
temperature above a certain designated point, the staff member is to be denied access. But with a
yes answer to the other screening questions, the staff member is only instructed to “contact the
medical officer on call for the Institution to provide Disposition.” See Coronavirus Disease 2019
(COVID-19) Staff Screening Tool, March 27, 2020. 31
69.

Based on data collected in a study conducted by the Indiana University Richard M.

Fairbanks School of Public Health, researchers estimated that 43% of all Indiana residents who
were currently infected showed no symptoms. IUPUI, ISDH release findings from 2nd phase of
COVID-19 testing in Indiana, June 17, 2020. 32

29

Available at: https://www.bop.gov/coronavirus/docs/covid19_screening_tool.pdf (last
visited July 5, 2020).
30

Available at: https://www.bop.gov/coronavirus/covid19_status.jsp (last visited July 5,

2020).
31

Available at:
https://www.bop.gov/coronavirus/docs/covid19_staff_screening_tool_v2.8_20200327.pdf (last
visited July 5, 2020.)
32

Available at: https://calendar.in.gov/site/isdh/event/iupui-isdh-release-findings-from2nd-phase-of-covid-19-testing-in-indiana/ (last visited July 5, 2020).
17

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 18 of 29 PageID #: 18
18a
70.

This number strongly suggests that a large percentage of those people who would

successively pass the BOP’s screening test and be admitted in its prisons would nevertheless have
an active case of COVID-19.
71.

Because individuals without symptoms transmit COVID-19, until a vaccine is

developed, the only effective screening measure is regular, rapid-result COVID testing for
everyone entering the facility. 33
V.

In Order to Travel to Attend Mr. Lee’s Execution, Plaintiffs Will Be Exposed to
Considerable Risk of contracting COVID-19.
72.

In order to participate as witnesses to Mr. Lee’s execution, Plaintiffs will have to

undertake long distance interstate travel to and from Terre Haute, Indiana, where the execution
will take place. Because the execution is scheduled for the afternoon of Monday, July 13, 2020,
Plaintiffs will have to spend two nights in hotels. Plaintiffs Veillette and Gurel will have to travel
by air and will be riding in a small van provided by the Government, in which their ability to
maintain social distancing—from the driver, from each other, and from anyone else in the van—
will not be feasible. Plaintiffs Veillette and Gurel have been practicing social distancing during
the pandemic, both generally and from each other as well. Neither has been with Plaintiff Peterson
during the pandemic. Plaintiff Peterson will be driven to Terre Haute by her son who has multiple
sclerosis.

33

Gandhi, Yokoe, & Havlir, supra at n.27.
18

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 19 of 29 PageID #: 19
19a
73.

Travel has the potential to cause new outbreaks across the country. The outbreak of

COVID-19 in New York is estimated to be responsible for 60-65% of cases nationwide, and travel from
Seattle spread the virus to at least 12 different states.34
74.

The CDC has published “Considerations for Travelers – Coronavirus in the US,” which

cautions “staying home is the best way to protect yourself and others from getting sick.” (emphasis in
original). The list of considerations includes the following: “(a) You can get infected while traveling.
(b) Even if you don’t have symptoms, you can spread COVID-19 to others while traveling. (c) Being
within 6 feet of others increases your changes of getting infected and infecting others. (d) Individuals
who have an increased risk of severe illness from COVID-19 should limit their travel. (e) If you get
infected while traveling you can spread COVID-19 to loved ones when you return, even if you don’t
have symptoms.”35
75.

Every stage and mode of travel involves significant risks of exposure for the traveler.

According to the CDC, “airports, bus stations, train stations, and rest stops are all places travelers can
be exposed to the virus in the air and on surfaces. These are also places where it can be hard to social
distance (keep 6 feet apart from other people).”36

34

Benedict Carey and James Glanz, Travel from New York City Seeded Wave of U.S.
Outbreaks, The New York Times, May 7, 2020. Available at:
https://www.nytimes.com/2020/05/07/us/new-york-city-coronavirus-outbreak.html (last visited
July 6, 2020).
35

Considerations for Travelers – Coronavirus in the US, Centers for Disease Control and
Prevention, Updated June 28, 2020. Available at: https://www.cdc.gov/coronavirus/2019ncov/travelers/travel-in-the-us.html (last visited July 6, 2020).
36

Id.
19

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 20 of 29 PageID #: 20
20a
76.

Travel by car involves “[m]aking stops along the way for gas, food, or bathroom breaks

[which] can put you and your traveling companions in close contact with other people and surfaces.” 37
77.

All airports pose a risk of COVID-19 due to the need to stand in security lines, as well

as exposure to high contact surfaces, close proximity to others, and spending extended periods of time
in an indoor environment.38
78.

The amount of time spent in airports in cities with higher cases counts increases one’s

risk of exposure to an infected person or surface.
79.

This means traveling from, laying over, and arriving into cities with higher case counts

increases one’s risk of exposure, as well.
80.

Air travel itself, separate from the hazards of being in airports, can lead to numerous

risks of transmission.
81.

The risk of transmission inside an airplane depends in small part on the number of

individuals on a plane, and the amount of space left between them, but, according to at least one airline
executives, social distancing is largely impossible on planes.39

37

Id.

38

Id.

39

Where some airlines have promised to block middle seats as a safety precaution, Josh
Earnest, United’s chief communications officer, said on July 1 that blocking middle seats is just
a public relations strategy. “When you’re onboard the aircraft, if you’re sitting in the aisle, and
the middle seat is empty, the person across the aisle is within six feet from you, the person at the
window is within six feet of you, the people in the row in front of you are within six feet of you,
the people in the row behind you are within 6 feet of you.” Chris Fuhrmeister, Delta reiterates
middle-seat policy after criticism from United, Atlanta Business Chronicle, July 1, 2020.
Available at: https://www.bizjournals.com/atlanta/news/2020/07/01/delta-blocking-middle-seatunited-criticism.html (last visited July 5, 2020). In other words, there is no way to social
distance on commercial airlines.
20

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 21 of 29 PageID #: 21
21a
82.

Universal mask wearing, especially on long flights during which passengers must

remove their masks to eat or drink, is largely unenforceable. Air circulation on planes may not be
uniform or subject to the control of an individual passenger. A fellow traveler, for example, may choose
to increase the air flow from his personal vent or point it away from himself, towards another passenger.
83.

Taking cabs and other car services leads to close contact with the driver, who may

spread the virus. A study from Zhuhai, China found that sharing a car with someone infected
significantly increased the risk of that person then becoming infected. 40 In addition, if cab owners
do not wipe down the interior after each passenger, there may be residual risk of infection from
the prior trip.
84.

The risk of infection from using public restrooms varies, depending on how often

and how thoroughly they are cleaned. However, the distance between bathroom stalls and sinks
may not provide adequate distancing, especially in an environment that may seem private enough
for one to remove his or her mask. And, as noted earlier, new information indicates that COVID19 may also be transmissible through aerosolized fecal contact.
85.

The risks from staying in a hotel includes the virus remaining on surfaces if rooms

were not properly cleaned. This may occur if staff who clean the rooms are infected but are not
taking proper precautions (wearing a mask, washing their hands, etc.) or are engaging in any
improper cleaning practices (using cleaners that are too weak, for instance). 41

40

Jian Wu et al., “Household Transmission of SARS-CoV-2, Zhuhai, China, 2020,”
Clinical Infectious Diseases: An Official Publication of the Infectious Diseases Society of
America, May 11, 2020, Available at: https://doi.org/10.1093/cid/ciaa557 (last visited July 6,
2020).
41

Maggie O’Neill, Is it safe to stay in a hotel during COVID-19? What you need to know
before you plan a vacation, Health, May 22, 2020. Available at:
https://www.health.com/condition/infectious-diseases/coronavirus/is-it-safe-to-stay-in-a-hotel21

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 22 of 29 PageID #: 22
22a
86.

During check-in, as well, it may be difficult to remain 6 feet or more from others,

including guests and staff. It may also be difficult to avoid elevators which present a risk of
infection, as they are a close, confined space. Individuals who are infected may touch the buttons
or join others in the elevator, thus exposing others to the virus.
87.

It is presumably for these reasons that federal government agencies, including the

DOJ and the BOP suspended most official travel. See Federal Bureau of Prisons COVID-19
Action Plan: Agency-wide Modified Operations, March 13, 2020; 42 Memorandum from Lee
Lofthus, Assistant Attorney General for Administration to Heads of Department Components and
United States Attorneys, U.S. Department of Justice, Justice Management Division, May 18,
2020. 43 See also, Federal Judiciary COVID-19 Recovery Guidelines, at p. 9, April 24, 2020

during-covid-19 (last visited July 6, 2020). See also Coronavirus Disease 2019 (COVID-19)
Personal and Social Activities, Centers for Disease Control and Prevention, updated June 15,
2020. Available at: https://www.cdc.gov/coronavirus/2019-ncov/daily-life-coping/personalsocial-activities.html#hotel (last visited July 6, 2020).
42

Available at: https://www.bop.gov/resources/news/20200313_covid-19.jsp (last
visited July 5, 2020).
43

Available at: https://www.justice.gov/doj/page/file/1284406/download (last visited
July 5, 2020). In this memorandum, it was announced that “[o]nly essential travel is permissible
in Phase 1. Staff traveling to areas that still have significant levels of COVID-19 cases must
follow the CDC quarantine guidelines before returning to the office. … [T]ravel to significant
outbreak areas should be considered only in light of the state/locality operating announcements
and, as noted above, travelers are subject to the CDC post-travel isolation guidelines. As a
general matter, routine travel for discretionary training, events, conferences, speeches and the
like should continue to be postponed in Phase 1 and Phase 2 (considering both departure points
and destinations). … In July we will assess whether we can more broadly return to in-person
even scheduling and travel.” (emphasis added.)
In this same memorandum, DOJ “recognizes that some employees are in vulnerable
populations or may be at higher risk for severe illness, or are caring for family members or others
in these groups. . . . Those at higher risk for severe illness include individuals who are over 65
years of age and people of all ages with underlying medical conditions, particularly if not well
controlled, including those who suffer from chronic lung disease, moderate to severe asthma,
22

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 23 of 29 PageID #: 23
23a
(requiring employees to maximize physical distance from others; instructing all vulnerable
individuals so continue teleworking, including employees who live with or provide care for
vulnerable individuals to “reduce chances that they could carry the virus to these vulnerable
individuals,” and notably, “MINIMIZE PERSONAL TRAVEL (i.e., leisure travel, non-business
related) and adhere to CDC guidelines and local state orders regarding travel destination and
potential for self-isolation upon return.” 44
VI.

Attending Mr. Lee’s Execution Will Place Plaintiffs at Great Risk of Contracting
COVID-19.
88.

Plaintiff Earlene Branch Peterson is 81 years old and has congestive heart failure.

She lives in Hector, Arkansas, at a distance of roughly 500 miles from FCC Terre Haute.
89.

Plaintiff Kimma Gurel is over 60 years old and has underlying health conditions

that put her at increased risk. She lives in Spokane Valley, Washington, a distance of more than
2,000 miles from FCC Terre Haute.
90.

Plaintiff Monica Veillette has asthma. She lives in Deer Park, Washington, a

distance of roughly 2,000 miles from FCC Terre Haute.
91.

As noted above, the greatest risks for transmission of COVID-19 result from

spending time in an enclosed indoor space without the ability to maintain social distancing and
where one is in contact with someone who has the virus. Wearing masks does not protect the

serious heart conditions, immune disorders, obesity, diabetes, or chronic kidney or liver disease
should work with supervisors to continue telework.” These employees are to be afforded
workplace flexibilities to “help reduce the chances that they could carry the virus to these
vulnerable individuals.”
44

Available at: https://www.fedbar.org/wp-content/uploads/2020/04/Federal-JudiciaryCOVID-19-Recovery-Guidelines.pdf (last visited July 5, 2020).

23

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 24 of 29 PageID #: 24
24a
wearer, and one’s eye membranes are an entry point for the virus. Sharing toilet facilities creates
additional risk, as fecal matter may be aerosolized when one flushes a toilet, and surfaces within a
bathroom may become contaminated.
92.

For the Plaintiffs to witness Mr. Lee’s execution, they would of necessity be in

contact with many other people in close proximity to them.
93.

Upon information and belief, Plaintiffs will not be permitted to come to the prison

grounds on their own but will be escorted there by BOP personnel.
94.

Upon information and belief, Plaintiffs will be brought into the main prison and

kept there for some period of time before being escorted to the execution facility.
95.

Prisons are known to have poor infection control mechanisms available, and are

often hotspots for infectious diseases, including SARS-CoV-2, as well as HIV, tuberculosis,
hepatitis viruses, influenza, and others. 45
96.

As with other contaminate environments, like nursing homes, to receive basic

necessities, prisoners are required to interact with numerous correctional officers daily: to receive
food, receive medication, be let outside into recreational facilities. One infected correctional
officer can spread infections between different areas of the prison.

45

Joseph A. Bick, “Infection Control in Jails and Prisons,” Clinical Infectious Diseases:
An Official Publication of the Infectious Diseases Society of America 45, no. 8 (October 15,
2007): 1047–55, https://doi.org/10.1086/521910; C. Raina MacIntyre et al., “Impact of
Tuberculosis Control Measures and Crowding on the Incidence of Tuberculous Infection in
Maryland Prisons,” Clinical Infectious Diseases 24, no. 6 (June 1, 1997): 1060–67,
https://doi.org/10.1086/513632; Masoud Dara et al., “Tuberculosis Control in Prisons: Current
Situation and Research Gaps,” International Journal of Infectious Diseases, Special Issue:
Commemorating World Tuberculosis Day 2015, 32 (March 1, 2015): 111–17,
https://doi.org/10.1016/j.ijid.2014.12.029.
24

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 25 of 29 PageID #: 25
25a
97.

As noted above, the screening of staff conducted at FCC Terre Haute, including

USP Terre Haute, does not provide adequate measures to detect infected staff members or other
personnel with whom Plaintiffs might have to interact.
98.

It is evident the screening measures at FCC Terre Haute, including USP Terre

Haute, have permitted the virus to gain entry there because prisoners have contracted the virus,
and at least one inmate has died of COVID-19. 46
99.

The Government’s plan for the execution involves “activation of the execution

team, which consists of 40 BOP staff members,” who normally conduct a “wide range of
correctional and administrative positions” and who will spend several days before the execution
practicing and preparing for the execution. 47
100.

In addition to the 40 members of the execution team, the BOP protocol involves

approximately 200 FCC Terre Haute staff who will perform security and support for the
execution. 48 These staff are “pulled away from their normal duties,” including, for example,
preparation of prisoners’ meals. 49 The plans for the execution also involve specialized BOP teams
with 50 individuals traveling to FCC Terre Haute from other prisons. 50 Approximately 300 BOP

46

COVID-19 Cases, BOP.gov, July 5, 2020. Available at:
https://www.bop.gov/coronavirus/ (July 6, 2020).
47

See In re Matter of Federal Bureau of Prisons’ Execution Protocol Cases, No. 1:19mc-145-TSC, Declaration of Rick Winter (“Winter Dec.”), ECF No. 54 (D.D.C. No. 21, 2019),
¶5.
48

Id. at ¶8.

49

Id.

50

Id. at ¶10.

25

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 26 of 29 PageID #: 26
26a
and FCC Terre Haute staff will be supplemented by additional staff from various federal, state,
and local law enforcement agencies to provide additional security. 51 Many of these individuals
will be traveling by air and staying in local hotels. 52
101.

The execution protocol requires the Director of the BOP to select eight witnesses

to the execution, including members of the victim’s family. 53 Plaintiffs will thus presumably be in
the company of any other individuals selected, who will likely also have been involved in interstate
transit to attend the execution, and who will not have been in quarantine prior to being in close
quarters with Plaintiffs.
102.

The execution “house,” which consists of several small, cramped rooms, is located

on the FCC Terre Haute grounds. 54 It is a small, single story building, like a small home. 55 For the
execution, witnesses, including the Plaintiffs, are shuttled in a small van to the facility from the
main correctional complex, to clear a security checkpoint. 56 They are then escorted by BOP
personnel through separate entrances to four small, cramped viewing rooms for each of the various
groups of witnesses, including a room for media, a room for Government witnesses, and a room
for the victims’ family members—to witness the execution. 57

51

Id. at ¶7.

52

Id. at ¶5.

53

See Exh. A, Ch. 1, III.G.1.c.(1), 10-11.

54

See Motion for Preliminary Injunction, Hartkemeyer v. Barr, et al., No. 2:20-cv-0036JMS-MJD (S.D. Ind. July 2, 2020), Exh. D, Declaration of Timothy Floyd, ¶¶ 4-5.
55

Id.

56

Id. at ¶¶ 4, 9.

57

Id. at ¶9.
26

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 27 of 29 PageID #: 27
27a
103.

At each stage of these proceedings, which are likely to last several hours, Plaintiffs

will be in the company of Defendants’ staff and other witnesses in circumstances during which
social distancing is not possible.
104.

At each stage of these proceedings, which are likely to last several hours, Plaintiffs

will be captive participants, unable to walk away if their escorts, other personnel, or other witnesses
remove their masks, and/or potentially exposed to COVID-19 due to its being on hard surfaces.
105.

At each stage of these proceedings and their travel to participate in them, Plaintiffs

face grim risks of exposure to COVID-19, a disease which for these vulnerable Plaintiffs, could
prove lethal.
Cause of Action
Agency Action in Violation of 5 U.S.C. § 706(2)(A)
106.

Plaintiffs reallege and incorporate by references all of the preceding paragraphs of

the Complaint as if they were set forth fully below.
107.

The APA states that a reviewing court “shall … hold unlawful and set aside agency

action” that is found to be “arbitrary, capricious, an abuse of discretion, or otherwise not in
accordance with law.” 5 U.SC. §706(2)(A).
108.

The agency action here — the setting of Mr. Lee’s execution date for July 13, 2020

— is both (1) arbitrary and capricious; and (2) “not in accordance with law.”
109.

Defendants acted arbitrarily and capriciously because, in setting Mr. Lee’s

execution date, they failed to consider important issues, including the effect of COVID-19 on

27

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 28 of 29 PageID #: 28
28a
Plaintiffs’ rights to attend the execution. As alleged above, Defendants have directly impaired
such rights because Plaintiffs can attend the execution only if they put their own lives at risk.
110.

Defendants’ action is also “not in accordance with law” because it effectively

nullifies 28 U.S.C. § 26.4, which, in combination with the Protocol, states that Plaintiffs are
entitled to attend Mr. Lee’s execution. As a result of Defendants’ action, Plaintiffs’ rights to the
attend the execution have been rendered illusory.
111.

Defendants easily could have avoided the foregoing violations of the APA by

delaying the setting of Mr. Lee’s execution date until such time as the COVID 19 abates
sufficiently so as to allow for safe travel and indoor gathering or there is an effective vaccine.
However, without good cause, Defendants have refused to change Mr. Lee’s execution date.
112.

An actual controversy exists between the parties regarding Defendants’ action and,

pursuant to 28 U.S.C. § 2201 and Fed. R. Civ. P. 57, Plaintiffs request that the Court declare their
rights in connection with the setting of Mr. Lee’s execution date.
113.

Accordingly, the Court should hold that Defendants have acted unlawfully, in

violation of 5 U.S.C. § 706(2)(A), and it should issue a declaratory judgment setting aside
Defendants’ selection of July 13, 2020 as Mr. Lee’s execution date.
114.

In addition, the Court should enter injunctive relief, pursuant to 28 U.S.C. § 2202

and Fed. R. Civ. P. 65, barring Defendants and their agents from establishing a new execution date
until they demonstrate to the Court that Plaintiffs will not be exposed to an undue health risk by
attending Mr. Lee’s execution.
Request for Relief
WHEREFORE, Plaintiffs respectfully request that this Court enter judgment in their
favor and that the Court:
28

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 29 of 29 PageID #: 29
29a
a. Grant a declaratory judgment finding that carrying out Mr. Lee’s execution during a
pandemic caused by SARS-CoV-2 and national health emergency without a vaccine or
treatment available for COVID-19 infringes on and constructively prevents Plaintiffs’
exercise of their legal right to attend the execution;
b. Grant a declaratory judgment finding that the scheduling of Mr. Lee’s execution during a
national health emergency that creates substantial health risks to Plaintiffs is arbitrary and
capricious action, and set aside the warrant of execution;
c. Grant injunctive relief prohibiting the BOP from carrying out the execution until
treatment or a vaccine is available;
d. Award attorney’s fees and costs as the Court deems equitable and just; and
e. Award such other and further relief as the Court deems equitable and just.
Respectfully submitted

/s/ H. Baker Kurrus
H. Baker Kurrus, PLLC
10816 Crestdale Lane
Little Rock, AR 72212
Phone: (501) 831-0325
Email: Bkurrus@aol.com
Arkansas Bar No. 80082
Attorney for Plaintiffs

Dated: July 7, 2020

29

Case 2:20-cv-00350-JMS-DLP Document 28-1 Filed 07/10/20 Page 1 of 3 PageID #: 320
30a
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
EARLENE PETERSON
KIMMA GUREL
MONICA VIELLETTE
Plaintiffs,
v.
WILLIAM P. BARR, in his official
capacity as the Attorney General of the
United States; MICHAEL CARVAJAL, in
his official capacity as the Director of the
Federal Bureau of Prisons; and T.J.
WATSON, in his official capacity as
Complex Warden for Terre Haute Federal
Correctional Complex,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 2:20-cv-00350-JMS-MJD

DECLARATION OF RICK WINTER
I, Rick Winter, do hereby declare and state as follows:
1.

I am employed by the United States Department of Justice, Federal Bureau of Prisons
(“BOP”), as Regional Counsel for the BOP’s North Central Region. I have held this
position since October 2016. I have been employed by the BOP since 1994.

2.

The statements I make hereinafter are made on the basis of my review of the official files
and records of the BOP, my own personal knowledge, or on the basis of information
acquired by me through the performance of my official duties.

3.

The BOP, under the supervision of the United States Marshals Service, is responsible for
implementing federal death sentences. See 18 U.S.C. § 3596(a); 28 C.F.R. Part 26.
Currently, execution dates are in place for four inmates. Specifically, Daniel Lee’s
execution is scheduled to occur on July 13, 2020; Wesley Purkey’s execution is scheduled

1

Case 2:20-cv-00350-JMS-DLP Document 28-1 Filed 07/10/20 Page 2 of 3 PageID #: 321
31a
to occur on July 15, 2020; Dustin Honken’s execution is scheduled to occur on July 17,
2020; and Keith Nelson’s execution is scheduled to occur on August 28, 2020.
4.

In advance of these dates, the BOP has been, and intends to continue, making necessary
arrangements.

5.

Such arrangements include the activation of the execution team, which consists of
approximately 40 BOP staff members. These staff members, by necessity, have been
removed from their normal duties, which include a wide range of correctional and
administrative positions within the BOP.

Pursuant to the current operational plan,

cessation of normal duties occurs several days in advance of a scheduled execution, in
order to give the team time to practice and prepare for their role in an execution. In addition
to the team members, a number of BOP administrators will be present as well. They also
ceased their normal duties in the days in advance of an execution. Logistical items such as
travel, lodging and personal arrangements have already been completed for the three
execution dates in July.
6.

Also, the BOP plans to use contractors who have made themselves available and have made
necessary arrangements for personal and work related matters based on the executions
scheduled in July and August. If the current execution dates are stayed, it is likely that
both contractors will need at least one month’s notice in order to be able to reschedule.

7.

Executions will take place at the Federal Correctional Complex at Terre Haute, Indiana
(FCC Terre Haute). Accordingly, FCC Terre Haute is also mobilizing personnel in
preparation of the currently scheduled executions, and has also been coordinating with
federal, state, and local law enforcement agencies, some of who plan to send personnel to
FCC Terre Haute to help maintain security for the currently scheduled executions.

8.

Approximately 100 BOP staff will serve as institution security and support during an
2

Case 2:20-cv-00350-JMS-DLP Document 28-1 Filed 07/10/20 Page 3 of 3 PageID #: 322
32a

Case 2:20-cv-00336-JMS-DLP Document 51-1 Filed 07/08/20 Page 1 of 4 PageID #: 625
33a
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF INDIANA

)
DALE HARTKEMEYER (AKA SEIGEN) )
)
Plaintiff,
)
)
v.
)
)
WILLIAM P. BARR, ET AL,
)
)
Defendants.
)
)

Case No. 2:20-cv-00336-JMS-DLP

DECLARATION OF RICK WINTER
I, Rick Winter, do hereby declare and state as follows:
1.

I am employed by the United States Department of Justice, Federal Bureau of Prisons
(“BOP”), as Regional Counsel for the BOP’s North Central Region. I have held this
position since October 2016. I have been employed by the BOP since 1994.

2.

The statements I make hereinafter are made on the basis of my review of the official files
and records of the BOP, my own personal knowledge, or on the basis of information
acquired by me through the performance of my official duties.

3.

The BOP, under the supervision of the United States Marshals Service, is responsible for
implementing federal death sentences. See 18 U.S.C. § 3596(a); 28 C.F.R. Part 26. The
BOP undertakes its role in accordance with the BOP Execution Protocol, see ECF No. 331, Declaration of Rick Winter (July 7, 2020), Ex. A-1, unless the Director or his designee
determines that deviation is required. Daniel Lewis Lee is a condemned inmate whose
execution is scheduled to occur on July 13, 2020, at the United States Penitentiary at Terre
Haute, Indiana (USP Terre Haute).

4.

I am aware that Earlene Branch Peterson, Kimma Gurel, and Monica Veillette have been
1

Case 2:20-cv-00336-JMS-DLP Document 51-1 Filed 07/08/20 Page 2 of 4 PageID #: 626
34a
designated as witnesses for purposes of the execution on July 13, 2020. 28 C.F.R.
§ 26.4(c)(4)(i).
5.

The Government announced the re-scheduling of Mr. Lee’s execution on June 15, 2020.
Ms. Branch Peterson, Ms. Gurel, and Ms. Veillette were informed of that date shortly after
it was publicly announced in order to begin their travel arrangements.

6.

I am aware that in the above referenced lawsuit Ms. Branch Peterson, Ms. Gurel, and Ms.
Veillette (Proposed Intervenors) seek to intervene as plaintiffs and allege that because of
their age and health conditions, and because of the number of BOP staff members and other
individuals expected to be present at the execution, they would be subject to an
unacceptably high risk of exposure to COVID-19 if they choose to attend the execution.

7.

However, despite the large number of individuals expected to be present at Mr. Lee’s
execution, Proposed Intervenors will have very limited interactions with the vast majority
of them. There are also numerous mitigation measures in place to avoid the spread of
COVID-19.

8.

The Terre Haute Federal Correction Complex (FCC Terre Haute) consists of USP Terre
Haute, as well as a Federal Correctional Institution (FCI Terre Haute) and a prison camp.
Staff are required to pass a temperature check and symptom screening daily before being
allowed on the grounds of FCC Terre Haute. All BOP staff are required to wear face
masks. FCC Terre Haute will continue its screening procedures for all individuals arriving
at the FCC.

9.

If Proposed Intervenors choose to attend Mr. Lee’s execution, they will have no interaction
with any inmates or members of the public other than possible limited interaction with the
rest of the witness group comprised of only the family members of Mr. Lee’s victims.

10.

As to their interaction with BOP employees, while the execution team consists of
2

Case 2:20-cv-00336-JMS-DLP Document 51-1 Filed 07/08/20 Page 3 of 4 PageID #: 627
35a
approximately 40 BOP staff members, the vast majority of them have assignments in areas
other than where Proposed Intervenors will be located. Similarly, while approximately 100
BOP staff members and approximately 50 members of specialized teams will have various
roles in the overall security of FCC Terre Haute, the vast majority will have duties which
will not cause them to have any interaction with Proposed Intervenors.
11.

On the day of the execution, Proposed Intervenors will be picked up by BOP staff from a
designated location off FCC Terre Haute grounds. Passengers in the vehicle will include
Proposed Intervenors and members of their immediate family. Upon being picked up, they
will be given the opportunity to utilize Personal Protective Equipment (“PPE”) in the form
of a surgical face mask, gloves, a gown, and a plastic face shield. BOP staff will be wearing
face masks. Proposed Intervenors will be escorted to FCC Terre Haute and through
security to a staging area on FCC Terre Haute property. At the staging area, they will have
access to hand sanitizer and a restroom with a sink and hand soap. The individuals at the
staging area will include Proposed Intervenors, their immediate family members, three
other witnesses from the family of Lee’s victims and approximately four BOP staff
members. The staging area allows for ample social distancing.

12.

At the appropriate time, those witnesses who have chosen to witness the execution will be
escorted to the execution facility witness room. Of the three proposed intervenors, only
Ms. Veillette has elected to do so. She will be accompanied in the witness room by two
additional witnesses, who will have access to PPE, and a small number of BOP staff, who
will be wearing face masks. Hand sanitizer will be available and the witnesses will have
access to a sink with hand soap. Ms. Branch Peterson and Ms. Gurel have elected to remain
in the staging area during the execution.

13.

At the conclusion of the execution, Ms. Veillette and the other witnesses in the execution
3

Case 2:20-cv-00336-JMS-DLP Document 51-1 Filed 07/08/20 Page 4 of 4 PageID #: 628
36a

